4

No.

IN THE

i

SUPREME COURT OF THE UNITED STATES

SHEILA DAVALLOO - PETITIONER
vs.
EILEEN RUSSELL, SUPERINTENDENT, ET. AL - RESPONDENT(S)

PROOF OF SERVICE
I, Sheila Davalloo, do swear or declare that on this date,

%/3

2021, as required

by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days. •
The names and addresses of those served are as follows:
Eileen Russell, Superintendent
Bedford Hills Correctional Facility
247 Harris Road
Bedford Hills, NY 10507

JoAnne Sulik, Esq., Supervisory Assistant State’s Attorney
Connecticut Office of the Chief State’s Attorney
300 Corporate Place
Rocky Hill, CT 06067

i

